Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Unidentified Primary Health Insurance:
      Medicare Secondary Payer
             Auxiliary File




                   JUNE GIBBS BROWN
                    Inspector General

                        JUNE 2000
                      OEI-07-98-00180
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) mandated by Public Law 95-452 as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Kansas City office prepared this report under the direction of James H. Wolf, Regional
Inspector General and Brian Pattison, Deputy Regional Inspector General. Principal OEI staff
included:

REGION
                                                 HEADQUARTERS

Linda Paddock, Project Leader
                          Stuart Wright, Associate Director

Tim Dold, Team Leader
                                  Barbara Tedesco, Mathematical Statistician

Hugh Owens, Program Analyst
                            Linda Moscoe, Program Analyst

Deborah Walden, Program Analyst

Dennis Tharp, Program Analyst

Mike Craig, Program Analyst





     To obtain copies of this report, please call the Kansas City Regional Office at (816) 426-3697.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                     EXECUTIVE                        SUMMARY

PURPOSE
       To determine whether Medicare beneficiaries included in the Health Care Financing
       Administration’s (HCFA) Medicare Secondary Payer (MSP) Auxiliary File have
       undetected health insurance which is primary to Medicare.

BACKGROUND
       Medicare provides health care coverage for eligible beneficiaries age 65 and older, certain
       individuals under 65 who are disabled, and individuals with kidney failure. However, it is
       not always the primary insurance payer. In general, Medicare is a secondary payer to:

       <	        coverage under a group health plan provided by an employer of 20 or more
                 persons of working beneficiaries age 65 or older or their spouses;
       <	        coverage under a group health plan provided by an employer of 100 or more
                 persons based on the current employment of disabled beneficiaries or their family
                 members;
       <         group health plan coverage of beneficiaries who have end stage renal disease
                 during their first 30 months of Medicare eligibility or entitlement; and
       <         coverage under an automobile, no-fault, liability insurance, or workers’
                 compensation plan.

       Providers and Medicare contractors share in the various tasks of primary health insurance
       detection including the retrieval of primary insurance information for the claim,
       pre-enrollment surveys of beneficiaries, screening claims, profiling trauma procedures for
       possible liability coverage, and exchanging computer data through matches.


FINDINGS
Overall, Medicare’s Secondary Payer (MSP) Auxiliary File Accurately Documents
Primary Insurance

       Only 0.43 percent (16 of the 3,250) of beneficiaries in our sample with primary health
       insurance coverage were not identified by Medicare. In our review of these 16
       beneficiaries, we found varying factors for Medicare’s status as the secondary payer.

       For the five beneficiaries found to have calendar year 1997 services inappropriately paid,
       Medicare made $8,452 in erroneous payments. Projecting these improper payments to
       our universe of 25 million beneficiaries, we estimate that the Medicare program
       inappropriately paid approximately $56 million in 1997.


   MSP: Unidentified Primary Insurance Sources    1                                     OEI-07-98-00180
       All Medicare initiatives to detect primary health insurance have contributed to the
       identification of undetected Medicare secondary payer situations. The IEQ is designed to
       capture all instances of primary coverage that exist when a beneficiary becomes entitled to
       Medicare; by virtue of this design, it is unable to document MSP events that occur post-
       entitlement. We found six beneficiaries in our sample who experienced life changes which
       gave them group health plan coverage subsequent to their completing the questionnaire.

RECOMMENDATIONS
       Based on our analysis, we believe that the Medicare Secondary Payer Auxiliary File
       generally reflects primary insurance sources. However, we did find some instances where
       other health insurance was undetected, with losses to Medicare of approximately
       $56 million. Further, as more individuals work beyond age 65 and are covered by both
       Medicare and private health insurance, early detection of these primary payers becomes
       even more important. Moreover, because validity indicators existed only for 20.3 million
       of the 38.5 million Medicare beneficiaries in 1997, a substantial portion of the Medicare
       population was not included in the scope of our study. As a result, we do not know the
       extent of undetected primary coverage within this group.

       We believe that opportunities exist to strengthen the cost effective early detection of other
       primary health insurance coverage both for those currently in the MSP Auxiliary File and
       those not in the file. To maximize these detection efforts, we recommend that HCFA

Emphasize to Providers the Importance of Reporting Timely Employment and
Health Insurance Information

       The HCFA should emphasize to providers the requirement that they obtain employment
       and insurance coverage information during each beneficiary visit, and code the primary
       payer portion of the claim accordingly. This information is vital to the initial detection of
       changes in beneficiary health insurance coverage.

Increase the Response Rate for the Initial Enrollment Questionnaire

       To the extent that beneficiaries do not respond to the Initial Enrollment Questionnaire, the
       odds that Medicare will pay for medical care covered by other insurance may be increased.
        HCFA could do any one or several of the following to increase the response rate.

         <       Conduct a second follow-up 6 months to 1 year after entitlement.
         <       Conduct the second follow-up as a pilot to test the increase in Initial Enrollment
                 Questionnaire responses.
         <	      Conduct a telephone survey of beneficiaries not responding to the Initial
                 Enrollment Questionnaire in order to determine the reasons for non-response and
                 to improve the questionnaire.




   MSP: Unidentified Primary Insurance Sources    2                                     OEI-07-98-00180
    AGENCY COMMENTS

    We solicited and received comments on our draft report from HCFA. The HCFA states
    that, based upon our findings, they are correctly identifying primary insurance for nearly
    99.6 percent of the 40 million Medicare beneficiaries. Again, we must caution that our
    findings can only be projected to the approximately 20.3 million living beneficiaries
    contained in Medicare’s Secondary Payer Auxiliary File. The use of this file does not
    permit projecting to all Medicare beneficiaries, but only those with records in this file.

    HCFA generally concurs with our recommendations that opportunities exist to strengthen
    early detection of other primary health insurance coverage. They also indicate work has
    been initiated with the new Coordination of Benefits contractor, which will emphasize to
    providers the requirement to obtain employment and health insurance information during
    each beneficiary visit.

    We are pleased that HCFA continues to seek out opportunities to strengthen the MSP
    process and recognize the positive efforts being made through the new Coordination of
    Benefits contract. We believe the results from a telephone survey of IEQ
    non-respondents should provide valuable information as to the extent of follow-up efforts
    that would be productive in ensuring the up-front response to the IEQ. The full text of
    HCFA’s comments are included in Appendix D.




MSP: Unidentified Primary Insurance Sources   3                                     OEI-07-98-00180
                       TABLE                       OF             CONTENTS

                                                                                                                       PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS


         Overall, MSP Auxiliary File Accurately Documents Primary Insurance . . . . . . . . . . . . . 13


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDICES


         A: Non-respondent Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


         B: Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


         C: Medicare Payments Where Primary Insurance Exists . . . . . . . . . . . . . . . . . . . . . . . . 25


         D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26





    MSP: Unidentified Primary Insurance Sources               4                                                 OEI-07-98-00180
                               INTRODUCTION

PURPOSE

     To determine whether Medicare beneficiaries included in the Health Care Financing
     Administration’s (HCFA) Medicare Secondary Payer (MSP) Auxiliary File have
     undetected health insurance which is primary to Medicare.

BACKGROUND

     Medicare was enacted in 1965 to pay for health care services provided to eligible
     beneficiaries age 65 and older, and certain individuals under 65 who are disabled or have
     kidney failure (end stage renal disease). Medicare provides coverage under two parts.
     Part A, hospital insurance, covers inpatient hospital services, skilled nursing home
     services, home health services, and various other institutional services. Part B,
     supplemental medical insurance, covers physician, outpatient hospital, and other necessary
     health services such as diagnostic tests.

     The Health Care Financing Administration (HCFA), within the Department of Health and
     Human Services (HHS), administers the Medicare program by establishing policies,
     developing operating guidelines, and ensuring compliance with Medicare law and
     regulations. The HCFA contracts with insurance companies, called intermediaries under
     Part A, and carriers under Part B, to process and pay claims for covered services. They
     also perform other administrative and operational tasks, such as reviewing claims, and
     ensuring that any incorrect payments are identified and returned to the Medicare program.

     Although Medicare provides health care coverage for the above referenced individuals, it
     is not always the primary insurance payer. Growing concern for rising Medicare program
     costs resulted in the passage of a series of statutory provisions which established Medicare
     as the secondary payer (MSP) to other private health care insurers in certain situations. In
     general, Medicare is a secondary payer to:

     <	        coverage under a group health plan (GHP) provided by an employer of 20 or more
               persons for working beneficiaries age 65 or older or their spouses;
     <	        coverage under a group health plan provided by an employer of 100 or more
               persons based on the current employment of disabled beneficiaries or their family
               members;
     <         group health plan coverage of beneficiaries who have end stage renal disease
               during their first 30 months of Medicare eligibility or entitlement; and
     <         coverage under an automobile, no-fault, liability insurance, or workers’
               compensation plan.



 MSP: Unidentified Primary Insurance Sources   5                                    OEI-07-98-00180
       The Health Care Financing Administration is responsible for the implementation of the
       various MSP provisions. In this role, it educates others about the laws; issues regulations,
       policy, and operational guidelines; delegates to its Medicare contractors various tasks to
       detect primary insurance coverage; develops and disseminates tools to enable contractors
       to better perform their responsibilities; and monitors the performance of the contractors in
       achievement of their assigned MSP functions.

       The most effective way to prevent mistaken Medicare payments is through early
       identification of beneficiaries with group health plan coverage. When employer group
       health insurance is identified before Medicare payments for services are made, claims are
       directed to that insurance company as the primary insurance payer. Medicare has
       established the following responsibilities related to detection of primary insurance
       situations.

Provider Responsibilities

       Part A procedures require institutional providers to obtain data on beneficiaries’ health
       insurance coverage to identify other insurers who should reimburse health care services
       prior to Medicare’s payment. This is accomplished through use of a series of questions
       designed to ensure that all hospitals collect similar information regarding potential primary
       payment sources. In the event that a provider receives payments from both Medicare and
       a group health plan, they are obligated to refund the Medicare payment.

       Part B procedures require non-institutional providers to ask Medicare beneficiaries a series
       of questions to determine if other health insurance coverage exists as part of each medical
       service. If other health insurance coverage is identified, providers must bill that insurance
       company as the primary payer or make adjustments for any duplicate Medicare payments.

Contractor Responsibilities

       The HCFA requires contractors to identify MSP claims prior to payment to prevent the
       more costly and time-consuming task of recovering inappropriate payments. Medicare
       contractors are required to:

       <         notify providers of appropriate procedures for properly billing MSP claims;
       <         audit providers for compliance with billing procedures;
       <         screen all claims for coverage by another insurer;
       <	        review all claims containing a diagnosis code indicating trauma which may have
                 resulted from an automobile or work-related accident; and
       <	        add, delete, and otherwise maintain MSP data on CWF’s MSP Auxiliary File as
                 new information becomes available and in this way share primary insurance
                 information with other contractors.




   MSP: Unidentified Primary Insurance Sources   6                                     OEI-07-98-00180
HCFA Initiatives

       The HCFA has undertaken the following initiatives to identify health insurance that should
       pay primary to Medicare:

       Initial Enrollment Questionnaire Since 1995, HCFA has contracted with Douglas
       Consulting and Computer Services to survey Medicare beneficiaries for available health
       insurance coverage. An Initial Enrollment Questionnaire (IEQ) is mailed to beneficiaries 3
       months before Medicare entitlement begins. This questionnaire, which is voluntary, asks
       beneficiaries about their employment status, other health insurance coverage, spouse’s
       employment status, age, and any health insurance coverage purchased through their
       employer. If the beneficiary does not return the questionnaire within 45 days, a follow-up
       survey is sent. If the information provided in response to the questionnaire is incomplete
       or inconsistent, the contractor contacts the beneficiary by telephone. The contractor
       reported that 70 percent of the surveys are initially returned, which increased to 79
       percent after follow-up. If primary health insurance coverage is detected, an indicator of
       primary health insurance coverage is then electronically integrated with the Common
       Working File, Medicare’s central claims processing file. Where a definitive determination
       about the absence of MSP is made a result of the IEQ process, a “N” validity code
       indicator is entered on the CWF MSP Auxiliary File record. In 1997, HCFA estimated
       this process was instrumental in the annual identification of 110,000 cases of third party
       health insurance, which generated an estimated annual Medicare Program savings of $425
       million.

       First Claim Development The Common Working File electronically notifies contractors
       when the first claim after Medicare entitlement is submitted on behalf of a beneficiary.
       This process, called “first claim development”, is performed by all Medicare intermediaries
       and carriers. Since 1987, individuals completing Medicare claims are asked to designate if
       other health insurance exists. If no MSP information is included on the first Medicare
       claim, the contractor processes it. They then mail a questionnaire to the beneficiary or the
       servicing provider to determine if the beneficiary or their spouse is covered under a group
       health plan and make payment adjustments, as necessary, based on the information so
       received.

       IRS/SSA/HCFA Data Match The Omnibus Budget Reconciliation Act of 1989
       authorized an exchange of information between the Social Security Administration (SSA)
       and the Internal Revenue Services (IRS). These computer data exchanges identify
       beneficiaries or their spouses who are employed and may have health insurance coverage
       through a group health plan. Through this initiative, the IRS links the names and Social
       Security numbers of each individual filing joint or separate married income tax returns, and
       SSA identifies beneficiaries or spouses with earnings posted to their records. The SSA
       provides employer names and addresses for these beneficiaries to the HCFA contractor,
       Group Health Incorporated of New York. The contractor develops information about
       other health insurance coverage and adds, deletes, and otherwise updates the CWF MSP
       Auxiliary File to reflect the data about other health insurance coverage that it receives
       pursuant to the IRS/SSA/HCFA Data Match.


   MSP: Unidentified Primary Insurance Sources   7                                    OEI-07-98-00180
    Prospective Data Sharing This initiative stems from a 1995 settlement agreement

    between HCFA and a number of private insurers (The Blue Cross and Blue Shield

    Association, Blue Cross Blue Shield of Florida, Blue Cross Blue Shield of Massachusetts,

    Blue Cross Blue Shield of Michigan, Transamerica, and Travelers Insurance Company)

    over disputed payments for Medicare beneficiaries. A major element of this agreement

    was the creation of a 3 year data exchange program between these insurance companies

    and Medicare. Provisions called for sharing private health insurance information with

    Medicare to identify MSP situations before claims were paid. The Health Care Financing

    Administration estimates this initiative saved Medicare approximately $720 million in

    Fiscal Year 1997. The GAO recently found that since 1995, case settlements in which a

    related company was also a Medicare contractor totaled almost $66 million, with an

    additional $98 million in claims filed against current and former contractors. These

    companies processed over 85 percent of all Part A claims, and 60 percent of all Part B

    claims.


    Coordination of Benefits Contract This latest initiative, awarded a multi-year contract

    in November 1999 to Group Health Incorporated of New York. In this role, Group

    Health Incorporated will consolidate activities to support the collection, management, and

    reporting of all health insurance coverage of Medicare beneficiaries for the purpose of

    implementing an improved plan for coordinating Medicare benefits with all other insurance

    coverages. These activities include:


        <     Initial Enrollment Questionnaire

        <     IRS/SSA/HCFA Data Match

        <     Voluntary Data Matches through negotiations with employers and other insurers

              to exchange eligibility information on Medicare beneficiaries
        <     First Claim Development
        <     MSP Claims Investigations
        <     Coordination of Benefits Agreements between HCFA and other health insurers for
              the exchange of eligibility and paid claims data
        <     Maintenance of the Common Working File MSP Auxiliary File
        <     Customer service through a staff charged with validating insurance information,
              resolving discrepant information and electronically updating beneficiary records

    Other Initiatives In addition, Medicare has implemented the following processes:


    <         establishing secondary payer units within contractors;

    <         improving education and training for providers and beneficiaries;

    <         incorporating beneficiary MSP information into the national beneficiary entitlement

              and utilization data housed on the Common Working File;
    <         establishing procedures for administrative sanctions of up to triple the amount of
              damages where Medicare made a primary payment when group health plans were
              obligated to pay as the primary insurer.


MSP: Unidentified Primary Insurance Sources    8                                     OEI-07-98-00180
Prior GAO and OIG Work

       Numerous reports have been issued by the HHS Office of Inspector General (OIG) and
       General Accounting Office (GAO)1 which describe problems associated with the
       identification of other primary health insurance. These reviews found deficiencies in
       internal management controls and identified MSP as a material weakness. These reports
       also noted the conflict of interest when Medicare contractors function as both the
       Medicare claims processor and the private insurer of Medicare beneficiaries who have
       additional health insurance.

       In a 1991 OIG study entitled “Extent of Unrecovered Medicare Secondary Payer Funds,”
       (OEI-07-90-00760), 4,300 beneficiaries were surveyed regarding their medical insurance
       coverage. The OIG identified primary insurance coverage for 34 beneficiaries (33 with a
       group health plan and 1 with auto accident insurance) for an actual loss of $60,502, which
       projected to an estimated Medicare program loss of over $637 million for calendar year
       1988.

       In a recently issued audit report2 the OIG found that based upon the IRS/SSA/HCFA data
       match from 1991 through 1997, HCFA does not have group health plan information for
       over one million employees. This resulted in the OIG identifying potential savings of
       approximately $282 million where claims were paid but a primary payer may have existed
       with liability other than Medicare.

METHODOLOGY
       We researched Federal laws, regulations, and Medicare policies addressing the
       identification and reimbursement of claims for beneficiaries who have coverage through an
       employer group health plan. We gathered additional information through interviews with
       a local Medicare intermediary, the Initial Enrollment Questionnaire contractor, and HCFA
       staff responsible for oversight of the various MSP provisions.

       To determine the extent of undetected primary health insurance coverage in HCFA’s
       Medicare Secondary Payer Auxiliary File, we surveyed a stratified sample of beneficiaries
       in the data system in 1998. This file, which contained approximately



       1
        GAO/HEHS-99-115, "Medicare Contractors - Despite Its Efforts, HCFA Cannot Ensure
        Their Effectiveness or Integrity," July 1999.
       2
       "Follow-up Review of the Health Care Financing Administration’s Efforts to Assure
       Employer Group Health Plan Compliance with Medicare Secondary Payer Data Match
       Requirements,” A-02-98-01036, February 2000.



   MSP: Unidentified Primary Insurance Sources   9                                   OEI-07-98-00180
    25 million beneficiaries, is housed within the Medicare Common Working File. We also
    obtained Medicare utilization records from Medicare’s 1997 National Claims History file
    to verify services received by these beneficiaries.

    The Common Working File maintains complete claim and entitlement data for all
    Medicare beneficiaries. When an intermediary or carrier receives a claim, it processes the
    claim to the point of payment or denial, using data from its own files and information on
    the claim. Claims are then processed against the Common Working File system to verify
    utilization and entitlement and check MSP edits to determine whether the claim should be
    approved for payment.

    The MSP auxiliary record is established as a product of the IEQ process or the processing
    of a Medicare claim. The Common Working File checks its MSP Auxiliary File for the
    existence of an MSP record, then for relevant data within that record where one exists,
    before processing claims to adjudication. This procedural flow is used to assure that
    claims are validated against the most recent primary insurance coverage data.

    The Common Working File also updates the MSP Auxiliary File through transactions from
    contractors and from information provided to HCFA by SSA. The Common Working File
    and auxiliary file contain a validity indicator field which denotes confirmation that: (1)
    another insurer other than Medicare is responsible for payment (“Y” in the field), (2)
    Medicare is the primary payer (“N” in the field), or (3) absence of a “Y” or “N” indicates
    absence of an MSP.

    Our sample included both persons eligible for Medicare due to age 65 as well as those
    entitled due to disability or end stage renal disease. We categorized the population
    contained in the MSP Auxiliary File into two strata:

    <         Stratum 1 - Beneficiaries receiving an IEQ and responding to it, and
    <         Stratum 2 - All other beneficiaries. This includes beneficiaries either not
              responding to the questionnaire or never receiving the survey because their
              entitlement date for Medicare occurred before the Initial Enrollment Questionnaire
              process began.

    We stratified our sample under the assumption that beneficiaries who do not return their
    Initial Enrollment Questionnaire surveys are more likely to have undetected primary health
    insurance. We therefore weighted our sample by selecting 35 percent of the sample
    beneficiaries from Stratum 1 and 65 percent from Stratum 2.

    We were aware that the total population in the MSP Auxiliary File contained deceased
    individuals. We did not survey deceased individuals and they were excluded from our
    sample popluation. The number of beneficiaries for analysis was 3,250 based on exclusion
    of deceased beneficiaries and a response rate less than 100 percent.


MSP: Unidentified Primary Insurance Sources   10                                    OEI-07-98-00180
                                                   TABLE 1

                                          Beneficiary Sample Selection

                                                          Stratum 1    Stratum 2
                                                               IEQ           All
      Sample Category                                   Respondents       Others            Total

      Total Population                                   2,692,816    22,388,885     25,081,701
      Estimated Deceased                                   102,327     4,701,666      4,803,993
      Estimated Population After Excluding
      Deceased                                           2,590,489    17,687,219     20,277,708
      Random Sample                                          1,811         3,364           5,175
      Sample Deceased                                           68          703               771
      Sample Beneficiaries                                   1,549         2582            4,131
      Sample Beneficiaries Who Responded
      To Our Survey                                          1,288         1,962           3,250

    As noted above, we developed and mailed surveys to 4,131 beneficiaries, soliciting
    information about the beneficiary or their spouse’s work status in 1997; eligibility for end
    stage renal disease, Black Lung, Workers Compensation, and disability benefits; and other
    medical insurance coverage information. We asked beneficiaries to provide us with the
    names, addresses, and phone numbers of employers and insurance companies where
    appropriate. A total of 3,250 beneficiaries (1,288 and 1,962 from Stratum 1 and Stratum
    2, respectively) returned our survey. This represents a 79 percent response rate.

    When responses to our survey identified the potential for additional primary health
    insurance coverage, we conducted a sequence of steps to determine whether improper
    Medicare payments had been made. These included:

    <         retrieving utilization information from the Medicare’s Common Working File;
    <	        obtaining secondary payer information from the MSP Auxiliary portion of the
              Common Working File to determine if Medicare contractors had detected primary
              health insurance;
    <         conducting telephone interviews with beneficiary employers and insurance
              companies to determine eligibility for coverage in 1997 under a group health plan;
    <         determining the amount payable by the group health plan considering deductibles
              and coinsurances; and
    <         calculating improper Medicare payments.



MSP: Unidentified Primary Insurance Sources        11                               OEI-07-98-00180
    We also extracted demographic information retrieved from HCFA’s Enrollment Database
    for use in preparing a non-respondent analysis (See Appendix A.) While the focus of this
    study involves services rendered in 1997, the Common Working File also contained
    information on 1998 and 1999 claims billed to Medicare.

    We conducted our review in accordance with the Quality Standards for Inspections
    issued by the President’s Council on Integrity and Efficiency.




MSP: Unidentified Primary Insurance Sources   12                                 OEI-07-98-00180
                                           FINDINGS

Overall, Medicare’s Secondary Payer (MSP) Auxiliary File
Accurately Documents Primary Insurance
      We examined Medicare’s Secondary Payer Auxiliary File which contained information
      about approximately 20.3 million living beneficiaries in 1997. Each beneficiary record in
      this file has an MSP validity code showing whether a primary payer other than Medicare
      existed or not. Our purpose was to determine the accuracy of the data in this file. The
      use of the Auxiliary File does not permit projecting to all Medicare beneficiaries, but only
      those with records in this file.

Undetected Coverage

      Only a small number of beneficiaries having primary insurance in our sample were
      undetected by Medicare. Of the 3,250 beneficiaries who returned our survey, 7 percent
      (241) had additional insurance which was primary to Medicare. We found HCFA
      processes had previously identified 93 percent of these individuals (225 of the 241) as
      having a primary insurance. In addition, 101 of these 225 beneficiaries with primary
      insurance coverage responded to the Initial Enrollment Questionnaire. The remaining 124,
      while not receiving, or if received, not responding to the Initial Enrollment Questionnaire,
      were nonetheless detected by Medicare as having primary insurance coverage.

      The remaining 16 beneficiaries, or 0.43 percent of our population had primary health
      insurance coverage which had not been detected by Medicare. For those 16 individuals,
      we determined Medicare should be secondary payer for

      <         seven beneficiaries age 65 or older who were working or had a working spouse.
      <         eight disabled beneficiaries who were working or had a working spouse.
      <         one beneficiary covered by automobile liability insurance.

      Table 2 on the following page summarizes the sampled beneficiaries’ responses, and the
      beneficiaries found to have primary insurance coverage. It also reflects the various
      weighted percentages in calculation of these figures.




  MSP: Unidentified Primary Insurance Sources   13                                    OEI-07-98-00180
                                               TABLE 2
                  Beneficiaries with Primary Insurance Other Than Medicare

      Category                                                                     1997 Study

      Total Surveys Mailed                                                                4,131
      Total Surveys Returned                                                              3,250
      Number of Survey Respondents with Primary Insurance Other Than
       Medicare                                                                             241
      Number of Survey Respondents with Primary Insurance Other Than
       Medicare Whose Coverage Was Not Identified by HCFA                                     16
                                              Percentages*
      Percent of All Beneficiaries with Records in the MSP Auxiliary File with

      Primary Insurance Other Than Medicare (weighted projection)                            7%

      Percent of All Beneficiaries with Records in the MSP Auxiliary File with

      Primary Insurance Other Than Medicare Whose Coverage Was Not

      Identified by HCFA (weighted projection)                                           0.43%

      Percent of All Beneficiaries with Records in the MSP Auxiliary File with

      Primary Insurance Whose Coverage Was Not Identified by HCFA                            6%


    * Confidence intervals are shown in Appendix B

    For analysis purposes, we divided our original sample (4,131) and survey responses
    (3,250) into three groups: group I consists of beneficiaries receiving an Initial Enrollment
    Questionnaire and returning it; group II reflects beneficiaries receiving the questionnaire
    and not returning it; and group III covers beneficiaries that never received the survey
    because their Medicare entitlement date preceded implementation of the questionnaire
    process, but they responded to our survey. The results of our analysis are shown in Table
    3 on the following page and are discussed further in the following findings.




MSP: Unidentified Primary Insurance Sources    14                                   OEI-07-98-00180
                                                    TABLE 3

                                                 Survey Responses

                                                          Sampled                    Returned
         Group                                         Beneficiaries                Our Survey
           I - Responded to IEQ                               1,549                         1,288
          II - Did not respond to IEQ                           454                           429
         III - Did not receive IEQ                            2,128                         1,533
         Total                                                4,131                         3,250

       We believe that Medicare initiatives to detect primary insurance coverage situations have
       contributed to the identification of undetected primary payer coverage. A number of
       initiatives have been implemented since our 1991 report which have had a positive impact.
       Despite being unable to quantify the level of impact of specific HCFA initiatives, we
       believe that the percentage of beneficiaries for which primary insurance payers were
       detected demonstrates the Initial Enrollment Questionnaire process is an effective
       mechanism.

Dollars Lost

       Of the 16 beneficiaries in our sample with undetected primary health insurance coverage,
       we found 5 received medical services which were inappropriately billed and paid by
       Medicare in calendar year 1997, totaling $8,452. Projecting these improper payments to
       the total number of beneficiaries in the MSP Auxiliary File, we estimate the Medicare
       program inappropriately paid approximately $56 million in 1997. At the 90 percent
       confidence level, this amount ranges between $8,452 and $139 million. The $56 million is
       only 0.056 percent of the $99 billion in benefits which Medicare paid on behalf of
       beneficiaries with a record in the MSP Auxiliary File in 1997. In fact, we estimate
       Medicare also paid $108 billion for the 18 million beneficiaries not in the Auxiliary File,
       and for which improper payments could have been made.

       Appendix C provides a summary of data related to these losses to the Medicare program
       in 1997 and subsequent instances of undetected primary coverage in 1998 and 1999.

Initial Enrollment Questionnaire

       The Initial Enrollment Questionnaire is among the recent Medicare initiatives to identify
       primary insurance payment sources. The results of our survey look at the effects of this
       initiative and are presented in Table 4 which is broken down by whether the beneficiary



   MSP: Unidentified Primary Insurance Sources       15                               OEI-07-98-00180
    responded to the questionnaire, received but did not respond, or did not receive the
    questionnaire.

                                                 TABLE 4
                             Initial Enrollment Questionnaire Responses
                                    Spousal    Medicare Entitlement   Insurance      1997
      Beneficiary       Group       Coverage   Type       Date        Began          Dollars

      A                 I           No         Aged        1997       1996                $0
      B                 I           No         Aged        1997       1997                $0
      C                 I           Yes        Aged        1995       1994                $0
      D                 I           No         Disabled    1996       1997                $0
      E                 I           Yes        Disabled    1995       1997                $0
      F                 I           Yes        Disabled    1995       1979                $0
      G                 I           Yes        Disabled    1997       1995                $0
      H                 I           Yes        Disabled    1996       1994                $0
      I                 II          No         Aged        1996       1994             $309
      J                 II          No         Disabled    1997       1998                $0
      K                 II          Yes        Disabled    1995       1997                $0
      L                 III         No         Aged        1992       1989             $395
      M                 III         No         Aged        1993       1997           $6,732
      N                 III         Yes        Aged        1991       1997                $0
      O                 III         No         Disabled    1985       1995             $797
     P                  III       No          Auto         1993        N/A           $219
    Group I             Responded to IEQ

    Group II            Received but did not respond to IEQ

    Group III           Did not receive IEQ (as entitlement date proceeded IEQ implementation)


    HCFA’s initiatives seem to be effective. But, because the instances of unidentified

    insurance and the actual lost revenues to Medicare were so low, we were unable to 

    distinguish the effects of the Initial Enrollment Questionnaire from all other initiatives. 

    However, the table above clearly indicates that the questionnaire does not identify all

    instances of primary health insurance coverage.




MSP: Unidentified Primary Insurance Sources      16                                    OEI-07-98-00180
    Our analysis established that the Initial Enrollment Questionnaire did not always identify
    primary insurance coverage for the following reasons:

    <	        Five beneficiaries did not receive an Initial Enrollment Questionnaire because their
              entitlement to Medicare occurred before the questionnaire process began.

    <	        Three beneficiaries did not respond to the Initial Enrollment Questionnaire. The
              contractor reports a 70 percent response rate to the first mailing of the
              questionnaire. This improves to 79 percent after a follow-up. Nonetheless, we
              identified 338 beneficiaries (338 of 2582, or 13 percent) who responded to our
              request but had not responded to the questionnaire or the contractor’s follow-up.
              We also found that of the 454 beneficiaries not responding to the questionnaire,
              104 (23 percent) did not respond to our survey. The questionnaire is sent to all
              newly enrolled beneficiaries within 3 months of their entitlement to Medicare.

              As previously noted, of the five beneficiaries found to have group health coverage
              with medical services billed to Medicare in 1997, one had not responded to the
              Initial Enrollment Questionnaire. Additionally, 1 of the 11 beneficiaries we found
              who had primary insurance coverage but no 1997 Medicare services, did not
              respond to it.

    <	        Employment and group health plan coverage circumstances can change after the
              Initial Enrollment Questionnaire is submitted. In fact, 6 of the 15 beneficiaries we
              identified with group health plan coverage had changes in employment or marital
              status subsequent to Medicare entitlement.

    <	        Five beneficiaries in our sample with undetected primary payer situations
              completed the Initial Enrollment Questionnaire, with Medicare payment records
              indicating that they had no group health plan coverage. For these individuals, our
              review identified they had primary insurance at the time they completed the
              questionnaire. While we could not verify specific reasons for the discrepancies, as
              source documents are not available, we surmise that reporting differences may be
              the result of erroneous information provided by the beneficiary, or errors in data
              entry from the initial questionnaire.




MSP: Unidentified Primary Insurance Sources    17                                     OEI-07-98-00180
                        RECOMMENDATIONS

      Based on our analysis, we believe that the Medicare Secondary Payer Auxiliary File
      generally reflects primary insurance sources. However, we did find some instances where
      other health insurance was undetected, with losses to Medicare of approximately
      $56 million. Moreover, because validity indicators existed only for 20.3 million of the
      38.5 million Medicare beneficiaries in 1997, a substantial portion of the Medicare
      population was not included in the scope of our study. As a result, we do not know the
      extent of undetected primary coverage within this group.

      We believe that opportunities exist to strengthen the cost effective early detection of other
      primary health insurance coverage both for those currently in the MSP Auxiliary File and
      those not in the file. To maximize these detection efforts, we recommend that HCFA

Emphasize to Providers the Importance of Reporting Timely
Employment and Health Insurance Information

      The HCFA should emphasize to providers the requirement that they obtain employment
      and insurance coverage information during each beneficiary visit, and code the primary
      payer portion of the claim accordingly as part of their continuing provider education
      efforts. The ongoing and timely collection of this information is vital to the initial
      detection of changes in beneficiary health insurance coverage and should decrease the
      likelihood that claims will be paid subject only to detection in post payment processes.

Increase the Response Rate for the Initial Enrollment
Questionnaire
      It is clearly advantageous to identify primary coverage at the earliest opportunity, thus
      preventing inappropriate primary payments by Medicare. Further, as more individuals
      work beyond age 65 and are covered by both Medicare and private health insurance, early
      detection of these primary payers becomes even more important. To the extent that
      beneficiaries do not respond to the Initial Enrollment Questionnaire, the odds that
      Medicare will pay for medical care covered by other insurance may be increased. HCFA
      could do any one or several of the following to increase the response rate.

      <	        Conduct a second follow-up 6 months to 1 year after the onset of entitlement, for
                those beneficiaries who have not received services and, therefore, were not asked
                to complete first claim development. Because we found 6 of 15 beneficiaries with
                primary coverage subsequent to Medicare entitlement, this postponement may also


  MSP: Unidentified Primary Insurance Sources   18                                    OEI-07-98-00180
               permit detection of beneficiary changes in employment or marital status subsequent
               to entitlement.

     <	        Perform the second follow-up as a pilot to test the effectiveness of this approach
               for increasing responses generated by the additional request sent at either the
               6th month or anniversary of entitlement.

     <	        Conduct a telephone survey of a sample of beneficiaries not responding to the
               initial questionnaire or its follow-up in order to determine the reasons for
               non-response and to improve the questionnaire.

Agency Comments

    We solicited and received comments on our draft report from HCFA. The HCFA states
    that, based upon our findings, they are correctly identifying primary insurance for nearly
    99.6 percent of the 40 million Medicare beneficiaries. Again, we must caution that our
    findings can only be projected to the approximately 20.3 million living beneficiaries
    contained in Medicare’s Secondary Payer Auxiliary File. The use of this file does not
    permit projecting to all Medicare beneficiaries, but only those with records in this file.

    HCFA generally concurs with our recommendations that opportunities exist to strengthen
    early detection of other primary health insurance coverage. They also indicate work has
    been initiated with the new Coordination of Benefits contractor, which will emphasize to
    providers the requirement to obtain employment and health insurance information during
    each beneficiary visit.

    We are pleased that HCFA continues to seek out opportunities to strengthen the MSP
    process and recognize the positive efforts being made through the new Coordination of
    Benefits contract. We believe the results from a telephone survey of IEQ
    non-respondents should provide valuable information as to the extent of follow-up efforts
    that would be productive in ensuring the up-front response to the IEQ. The full text of
    HCFA’s comments are included in Appendix D.




 MSP: Unidentified Primary Insurance Sources    19                                     OEI-07-98-00180
                                                                        APPENDIX A



              Analysis of Respondents vs. Non-respondents


   A consideration in surveys of this type is that the results may be biased if 

   non-respondents are different from respondents. To test for the presence of any bias, we

   compared responders with non-responders, for certain variables, in an attempt to determine

   how any observed differences might affect the results. We compared age, sex, and disabled

   vs. aged for each of the two strata sampled. Our analysis (Tables 1-5) demonstrate no

   significant differences between these two groups.





MSP: Unidentified Primary Insurance Sources   20                                 OEI-07-98-00180
   Tables 1 and 2 below give the breakdown of the sample by sex for each of the two strata,
   responded to the Initial Enrollment Questionnaire and did not respond to the Initial
   Enrollment Questionnaire.



                                                          Table 1


                                              Responded to IEQ by Sex


                                      Respondents                    Non-respondents
                           Sex                 n               %            n           %
                          Male                      599        46.              119    45.
                                                                5                       6
                         Female                     689        53.              142    54.
                                                                5                       4
                          Total                    1288                         261

   Chi-square= .078 not significant
   df=1


                                                          Table 2

                                        Did Not Respond to IEQ by Sex

                                      Respondents                    Non-respondents
                        Sex                    n           %                n          %
                        Male                        912 46.                     291    46.
                                                        5                              9
                        Female                     1050 53.                     329    53.
                                                        5                              1
                        Total                      1962                         620

   Chi-square=.040 not significant
   df=1



MSP: Unidentified Primary Insurance Sources               21                                 OEI-07-98-00180
   Tables 3 and 4 show a comparison of the average age of each respondent type for each of
   the two strata sampled, respondents to the Initial Enrollment Questionnaire and
   non-respondents to the questionnaire. A t-test was used to determine if a difference
   occurred between responders and non-responders.



                                                      Table 3

                                              Responded to IEQ by Age

                                                n     Mean Age    Std.     Std. Error
                                                                  Dev.
                     Responders                1288        64.9     5.72          .16
                     Non-Responders             455        64.7     6.77          .42

   t= .32 not significant

                                                      Table 4

                                        Did Not Respond to IEQ by Age

                                                n     Mean Age    Std.     Std. Error
                                                                  Dev.
                     Responders                1962        68.5     11.1          .25
                     Non-Responders             620        67.3     12.7          .51

   t=1.98 significant at .05 level

   The t-test showed a significant difference between the ages of responders vs.
   non-responders within the strata for those who did not respond to the Initial Enrollment
   Questionnaire. Therefore, the average age of the responders to our survey was slightly
   greater than the average age on those who did not respond to our survey. Since by
   definition, the disabled population is younger than the aged (Medicare defines all disabled
   as being under 65), a further analysis was done by aged vs. disabled for only the strata
   containing the questionnaire non-respondents. It is given in Table 5 on the following page.




MSP: Unidentified Primary Insurance Sources           22                                OEI-07-98-00180
                                                         Table 5


                               Did Not respond to IEQ by Disabled vs. Age


                                      Respondents                   Non-respondents
                       Category               n            %               n          %
                       Aged                       1553     79.                 472    76.
                                                           2                          1
                       Disabled                    409     20.                 148    23.
                                                           8                          8
                       Total                      1962                         620

   Chi-square=2.55 - not significant
   df=1




MSP: Unidentified Primary Insurance Sources          23                                     OEI-07-98-00180
                                                                        Appendix B

                         Estimates And Confidence Intervals

   The chart below summarizes the estimated proportions and the confidence intervals for key
   statistics presented in this report. The estimates refer to the percentage of survey
   respondents with primary insurance other than Medicare.

                                                                             90 %
                                                           Weighted        Confidence
     Survey Respondents                                    Percent          Interval
     Percent of All Beneficiaries with Records in the
     MSP Auxiliary File with Primary Insurance Other
     Than Medicare                                                 7%            6% - 8%
     Percent of All Beneficiaries with Records in the
     MSP Auxiliary File with Primary Insurance Other
     Than Medicare Whose Coverage Was Not
     Identified by HCFA                                         0.43%      0.22% - 0.65%
     Percent of All Beneficiaries with Records in the
     MSP Auxiliary File with Primary Insurance Whose
     Coverage Was Not Identified by HCFA                           6%        3.1% - 9.3%




MSP: Unidentified Primary Insurance Sources   24                                OEI-07-98-00180
                                                                                                                APPENDIX C

                                      Medicare Payments Where Primary Insurance Exists
                                                        Identified Savings
                                                          1997         1998            1999                  Notes
      6 Working Aged Beneficiaries
            2 of which did not receive the IEQ            $ 395        $ 396           Not elig              MSP ended 8/31/98
                                                          $6,732       $    3          Not elig              MSP ended 8/1/98
              1 of which did not respond to the IEQ       $ 309        $ 279           Not elig              MSP ended 1/1/99
              3 of which responded to IEQ                 No svcs      No svcs         Potential dollars*    MSP ended 7/1/99
                                                          No svcs      No svcs         Not elig              MSP ended 6/30/98
                                                          No svcs      No svcs         Potential dollars*    MSP continues

      1 Beneficiary with a Working Aged Spouse
             did not receive the IEQ                       No svcs     Not elig         $     119            Elig 2/97 and 1-6/99
25





      3 Working Disability Beneficiaries
            1 of which did not receive the IEQ             $ 797       $ 757            $ 228                MSP continues
            1 of which did not respond to the IEQ          Not elig    No svcs          Potential dollars*   MSP continues
            1 responded No to IEQ in 1996                  No svcs     No svcs          Potential dollars*   MSP continues

      5 Disability Beneficiaries with Working Spouses
             1 of which did not respond to the IEQ        No svcs      No svcs         Potential dollars*    MSP continues
             2 of which responded to the IEQ in 1995      No svcs      No svcs         Potential dollars*    MSP continues
                                                          No svcs      No svcs         Potential dollars*    MSP continues
              2 of which responded to the IEQ in 1996     No svcs      No svcs         Potential dollars*    MSP continues
                                                          No svcs      $13,420         Not elig              MSP ended 10/1/98

      1 Aged Beneficiary with Auto Accident in 1997       $ 219

      *Possible dollar loss



          MSP: Unidentified Primary Insurance Sources                             OEI-07-98-00180
                                                         APPENDIX D


                                      Agency Comments





MSP: Unidentified Primary Insurance Sources   26              OEI-07-98-00180
MSP: Unidentified Primary Insurance Sources   27   OEI-07-98-00180
MSP: Unidentified Primary Insurance Sources   28   OEI-07-98-00180
MSP: Unidentified Primary Insurance Sources   29   OEI-07-98-00180
